N o -_____
I N TH E
Supreme Court of the United States

P AME LA J . S MITH ,
Petition er,
v.
U NIVE RSITY OF M ARYLAND B ALTIMORE , E T AL .,
R espon d en ts.
On P et it ion for Wr it of Cer t ior a r i t o t h e Unit ed St a t es
Cou r t of Appea ls for t h e F ou r t h Cir cu it

P ETITION F OR A WRIT OF CERTIORARI
M ORRIS E . F ISCH E R
C OUN S E L OF R E COR D
8720 Geor gia Ave, Suit e 210
Silver Spr in g, MD 20910
Ma in – (301) 328-7631
Dir ect – (301) 328-7638
MORRIS @MF ISCH E RLAW . COM
C OUN S E L FOR P E T IT ION E R
DAT E : J UL Y 29, 2019

i
QU ES TION S P RES EN TED
1)
Wh et h er , in ligh t of t h is Cou r t ’s r ecen t
decision in McDon ou gh v. Sm it h , 588 US __(2019)
a n d t h e Civil Righ t s Act of 1991, r et a lia t ion cla im s
u n der 42 U.S.C. §1981 sh ou ld a ccr u e a t t h e da t e of
t h e a dver se em ploym en t a ct ion a s opposed t o t h e
da t e wh en t h e a dver se em ploym en t decision wa s
com m u n ica t ed t o t h e em ployee?
2)
Wh et h er t h e F ou r t h Cir cu it er r ed in a ffir m in g
t h e Dist r ict Cou r t ’s decision dism issin g Ms. Sm it h ’s
42 U.S.C. §1981 cla im s a s t im e-ba r r ed?

ii

LIS T OF ALL P ARTIES
P la in t iff-a ppella n t below, wh o is t h e pet it ion er
befor e t h is Cou r t , is P a m ela J . Sm it h .
Th e
Defen da n t s-Appellees below a n d r espon den t s befor e
t h is Cou r t a r e t h e Univer sit y of Ma r yla n d Ba lt im or e,
J oh n J en sen (in dividu a l ca pa cit y) a n d Glosen d a
Na va les (in dividu a l ca pa cit y).

iii

TAB LE OF CON TEN TS
QUE STIONS P RE SENTE D ......................................... i
LIST OF ALL P ARTIE S ............................................. ii
TABLE OF CONTE NTS………………………….….....iii
TABLE OF AUTH ORITIE S…………………….…..…..v
OP INIONS BE LOW ..................................................... 1
J URISDICTION ........................................................... 1
CONSTITUTIONAL AND STATUTORY
P ROVISIONS INVOLVE D ............................... 1
STATE ME NT OF TH E CASE ..................................... 2
A. P et it ion er ’s Ar gu m en t s in t h e Dist r ict Cou rt
a n d Cou r t of Appea ls for t h e F ou r t h Cir cu it .......... 3
B. Th e Decision s of t h e Dist r ict Cou r t a n d t h e
Cou r t of Appea ls for t h e F ou r t h Cir cu it ................. 5
RE ASONS F OR GRANTING TH E P E TITION .......... 6

iv
I. Th is Cou r t ’s Decision in McDon ou gh v. Sm it h
is in t en sion wit h Ch a r don v. F er n a n dez in t h e
con t ext of post con t r a ct -for m a t ion §1981 cla im s. ... 6
II. Th e 1991 Am en dm ent s t o t h e Civil Righ t s Act
ch a n ged t h e con t ou r s of §1981 post con t r a ct
for m a t ion cla im s. It is a ppr opr ia t e for t h e Cou r t t o
look a t t h e u n der lyin g con t r a ct cla im for pr in ciples
of cla im s a ccr u a l - sim ila r t o wh a t t h e Cou r t did
r ecen t ly in McDon ou gh . Respect fu lly, t h e ru les
a r t icu la t ed in Ricks a n d Ch a r don a r e ou t da t ed a s
a pplied t o t h ese post 1991 a m en dm en t s cla im s. .. 10
CONCLUSION .......................................................... 15
AP P E NDIX………………………………………………iA
Un pu blish ed Opin ion a n d J u dgm en t of
Th e Un it ed St a t es Cou r t of Appea ls
F or t h e F ou r t h Cir cu it
en t er ed Apr il 30, 2019…………………1A
Mem or a n du m Opin ion of
Th e Un it ed St a t es Dist r ict Cou r t
F or t h e Dist r ict of Ma r yla n d
en t er ed Sept em ber 27, 2018………….5A
Or der of
Th e Un it ed St a t es Dist r ict Cou r t
F or t h e Dist r ict of Ma r yla n d
en t er ed Sept em ber 27, 2018………...16A

v
TAB LE OF AU THORITIES
CAS ES
Ch a r don v. F er n a n dez, 4
54 U.S. 6, (1981) .......................................... 4, 5, 7
Dela wa r e St a t e Collegev. Ricks,
449 U. S. 250 (1980) ........................................ 4, 8
F r a n ch ise Ta x Bd. of Ca l. v. H ya t t ,
587 U.S. ___, 17 (2019). ....................................... 6
J on es v. R. R. Don n elley & Son s Co.,
541 U.S. 369, 372-73 (2004) ............................. 11
Ku m a r v. Dha n da ,
426 Md. 185, 43 A.3d 1029, 1035 (2012) ........ 3, 4
McDon ou gh v. Sm it h ,
588 US __(2019 ................................................... 5
S TATU TES
28 U.S.C. §1254(1). ...................................................... 1
42 U.S.C. §1981 ................................................. 1, 3, 10
RU LES
F ed. R. Civ. P . 6(a )(1)(C) ............................................. 3
S. Ct . Ru le 10(c). .......................................................... 6

1
OP IN ION S B ELOW
Th e opin ion of t h e Un it ed St a t es Cou r t of
Appea ls for t h e F ou r t h Cir cu it is a va ila ble a t No. 18 2296 (4t h Cir . 2019) a n d set for t h in P et it ion er ’s
a ppen dix. P et . App. 1a . Th e dist r ict cou r t ’s or der
gr a n t in g t h e r espon d en t s’ m ot ion t o dism iss is set
for t h in P et it ion er ’s Appen dix. P et . App. 5a .
J U RIS D ICTION
Th e F ou r t h Cir cu it en t er ed ju dgm en t on Apr il
30, 2019, a ffir m in g t he ju dgm en t of t h e dist r ict cou r t .
Th is Cou r t h a s ju r isdict ion u n der 28 U.S.C. §1254(1).
CON S TITU TION AL AN D S TATU TORY
P ROVIS ION S IN VOLVED
42 U.S.C. §1981 pr ovides:
(a )S ta te m e n t o f e qu a l rig h ts
All per son s wit h in t h e ju r isdict ion of t h e
Un it ed St a t es sh a ll h a ve t h e sa m e r ight in
ever y St a t e a n d Ter r it or y t o m a ke a n d en for ce
con t r a ct s, t o su e, be pa r t ies, give eviden ce, a n d
t o t h e fu ll a n d equa l ben efit of a ll la ws a n d
pr oceedin gs for t h e secu r it y of per son s a n d
pr oper t y a s is en joyed by wh it e cit izen s, a n d
sh a ll be su bject t o like pu n ish m en t , pa in s,
pen a lt ies, t a xes, licen ses, a n d exa ct ion s of
ever y kin d, a n d t o n o ot h er .
(b)“Ma k e an d e n fo rc e c o n tra c ts” d e fin e d

2
F or pu r poses of t h is sect ion , t h e t er m “m a ke
a n d en for ce con t r a ct s” in clu des t h e m a kin g,
per for m a n ce, m odifica t ion , a n d t er m in a t ion of
con t r a ct s, a n d t h e en joym en t
of a ll
ben efit s, pr ivileges, t er m s, a n d con dit ion s of
t h e con t r a ct u a l r ela t ion sh ip.
(c )P ro te c tion a g a in s t im p a irm e n t
Th e r igh t s pr ot ect ed by t h is sect ion a r e
pr ot ect ed
a ga in st
im pa ir m en t
by
n on gover n m en t a l
discr im in a t ion
and
im pa ir m en t u n der color of St a t e la w.
S TATEMEN T OF THE CAS E
P et it ion er , P a m ela J . Sm it h , wa s for m er ly
em ployed by Respon den t , t h e Univer sit y of Ma r yla n d
Ba lt im or e. P et . App. 5A. In 2011, Ms. Sm it h a n d
ot h er Afr ica n Am er ica n em ployees filed com pla in t s,
a ga in st t h eir su per visor , Respon den t , Glosen da
Na va les, con t en din g t h a t Ms. Na va les h a d cr ea t ed a
“host ile wor kpla ce for Afr ica n Am er ica n s.” Id.
Soon a ft er , Ms. Sm it h bega n r eceivin g “un du e
disciplin a r y wa r n ings,” “poor job per for m a n ce
feedba ck,” a n d wa s su bject t o ot h er a dver se a ct ion s.
Id. Ms. Sm it h wa s su bject ed t o a P er for m a n ce
Im pr ovem en t P la n , wh ich h er su per visor s r en ewed
a t m on t h ly in t er va ls “for over a yea r a n d a h a lf u n t il
h er t er m in a t ion .” Id.
On Novem ber 8, 2013 Ms.
Sm it h r eceived a let t er fr om t h e Un iver sit y t h a t h er
em ploym en t wou ld be t er m in a t ed effect ive Decem ber
9, 2013. P et . App. 8a -9a . On Decem ber 9, 2013,

3
Sm it h wa s t er m in a t ed fr om h er em ploym en t wit h
t h e Un iver sit y. Id.
F ou r yea r s la t er , on Decem ber 11, 2017, Ms.
Sm it h filed a pro se a ct ion a ga in st t h e Un iver sit y
a llegin g, a m on g ot h er t h in gs, t h a t h er t er m in a t ion
h a d been t h e r esu lt of u n la wfu l r et a lia t ion for
m a kin g com pla in t s of r a ce-ba sed em ploym en t
discr im in a t ion in viola t ion of 42 U.S.C. §1981.1 Id.
Respon den t s filed a m ot ion t o dism iss
pu r su a n t t o F ed. R. Civ. P . 12(b)(6). Essen t ia lly,
Respon den t s a r gu ed t h a t Ms. Sm it h ’s Decem ber 11,
2017 §1981 com pla in t wa s t im e-ba r r ed beca u se Ms.
Sm it h wa s n ot ified of h er pen din g t er m in a t ion on
Novem ber 8, 2013 - m or e t h a n fou r yea r s pr ior t o h er
feder a l dist r ict cou r t com pla in t .
A.

P e titio n e r’s Arg u m e n ts in th e
D is tric t Cou rt a n d Co u rt o f Ap p e a ls
fo r th e F o u rth Circ u it

In t h e dist r ict cou r t (a n d t h e in t h e F ou r t h
Cir cu it Cou r t of Appea ls), Ms. Sm it h a r gu ed t h a t h er
Sect ion 1981 t er m ina t ion cla im s wer e t im ely filed.
Sect ion 1981, u n like Tit le VII, is a st a t u t e
per t a in in g t o “con t r a ct s.” Un der Ma r yla n d st a t e
con t r a ct la w, t h e da t e of a ccr u a l for a br ea ch of
con t r a ct a ct ion is “a t t h e t im e of t h e br ea ch .” Ku m a r
v. Dh a n da , 426 Md. 185, 43 A.3d 1029, 1035 (2012).
In ot h er wor ds, Ma r yla n d “”la w is con cer n ed wit h
December 9, 2017 (4 years after Ms. Smith’s termination was
a Saturday. Under Fed. R. Civ. P. 6(a)(1)(C) the time continued
to run until the following Monday, December 11, 2017.
1

4
a ccr u a l in t h e sen se of t est in g wh et h er a ll of t h e
elem en t s of a ca u se of a ct ion ha ve occu r r ed so t h a t it
is com plet e.” Id.
Of cou r se, Ms. Sm it h r ecogn ized t h a t t h ere is
a body of pr eceden t fr om t h is Cou r t t h a t h a s h eld
t h a t , for a ccr u a l pu r poses in feder a l discr im in a t ion
ca ses, t h e “pr oper focu s is u pon t h e t im e of t h e
discr im in a t or y a ct s, n ot u pon t h e t im e a t wh ich t h e
con sequ en ces of t h e a ct s beca m e m ost pa in fu l.”
Dela wa r e St a t e Coll. v. Ricks , 449 U.S. 250, 258
(1980); see a lso Chardon v. Fernandez, 454 U.S. 6, 8
(1981)(“m er e con t inu it y of em ploym en t , wit h ou t
m or e, is in su fficien t t o pr olon g t h e life of a ca u se of
a ct ion for em ploym ent discr im in a t ion .”)
H owever , followin g Ricks a n d Ch a r don ,
Con gr ess pa ssed t h e 1991 a m en dm en t s t o §1981,
“con st it u t [ing] t h e la r gest a lt er a t ion t o t h e
Recon st r u ct ion er a st a t u t e.” P et . App. 10a . Unlike
pr e-1991 §1981 ca ses, post 1991 a m en dm en t s ca ses
“cover t h e t er m ina t ion of con t r a ct s.” P et . App. 13a .
Th u s, Ms. Sm it h a r gu ed t h a t t h e Ricks a n d Ch a r don
lin e of ca ses cou ld n ot con t in u e t o t h e h old t h e da y in
post 1991 a m en dm en t s §1981 con t r a ct t er m in a t ion
ca ses, a s a br ea ch of con t r a ct cla im , i.e., con t r a ct
t er m in a t ion , a r ises on ly wh en a ll t h e elem en t s of
br ea ch of con t r a ct a r e m et . Ku m a r v. Dh a n da , 426
Md. 185, 43 A.3d 1029, 1035 (2012).
Th u s, u n like Tit le VII or ot h er n on -con t r a ct u a l
feder a l civil r igh t s st a t u t es, t h e discr im in a t or y
decision t o t er m in a t e a n em ployee in t h e con t ext of a
post 1991 a m en dm en t s §1981 cla im (post con t r a ct
for m a t ion ) is on ly h a lf t h e pict u r e, a s a br ea ch of
con t r a ct cla im s (which is r ea lly a §1981 cla im )

5
r equ ir es a ll of elem en t s t o be m et t o br in g a ca u se of
a ct ion .

B.

Th e D e c is io n s o f th e D is tric t Cou rt
a n d th e Co u rt o f Ap p e a ls fo r th e
F o u rth Circ u it

Bot h t h e Dist r ict Cou r t a n d F ou r t h Cir cu it
Cou r t of Appea ls r eject ed Ms. Sm it h ’s “in n ova t e
con t r a ct r igh t t h eor y” a n d fou n d t h a t Ms. Sm it h ’s
§1981 cla im s wer e t im e-ba r r ed. P et . App. 12a , 13a .
In a per cu r ia m decision , Th e F ou r t h Cir cu it
Cou r t of Appea ls h eld
“In det er m in in g a §1981 cla im ’s da t e of
a ccr u a l, t h e pr oper focu s is on t h e t im e of t h e
d iscrim in atory act, n ot t h e poin t a t wh ich t h e
con sequ en ces of t h e a ct becom e pa in fu l.
P et . App 2a . (cit in g Ch a r don v. F er n a n dez, 454 U.S.
6, 8 (1981). Th e F ou r t h Cir cu it wen t on t o sa y “we
discer n n o ba sis for depa r t in g fr om t h e r u le
est a blish ed in Ricks a n d Ch a r don .” P et . App. 3a .
Ms. Sm it h h a s filed t h e in st a n t pet it ion for a
wr it of cer t ior a r i beca u se t h er e a r e t wo r ea son s t o
depa r t fr om t h e Ricks a n d Ch a r don r u les. F ir st , t h is
Cou r t ’s r ecen t decision in McDon ou gh v. Sm it h , 588
US __(2019) set s for t h a differ en t cla im s a ccr u a l r u le
t h a n Ricks/Ch a r don . Secon d, t h e Ricks/Ch a r don
ca ses wer e decided pr ior t o t h e 1991 Am en dm en t s t o
§1981, a n d t h er e a r e good r ea son s t o qu est ion
Ricks/Ch a r don con t in u ed a pplica bilit y t o post 1991
a m en dm en t s con t r a ct t er m in a t ion cla im s.

6

REAS ON S F OR GRAN TIN G THE P ETITION
Th e Su pr em e Cou r t m a y gr a n t a pet it ion for a
wr it of cer t ior a r i wh en “a Un it ed St a t es cou r t of
a ppea ls h a s decided a n im por t a n t qu est ion of feder a l
la w t h a t ha s n ot been , bu t sh ou ld be set t led by t his
Cou r t .” S. Ct . Ru le 10(c). In a ddit ion , t h e Cou r t m a y
gr a n t a pet it ion for a wr it of cer t ior a r i t o con sider t h e
con t in u ed a pplica t ion of it s pr eceden t s a s it per t a in s
t o t h e: “t h e qu a lit y of t h e decision ’s r ea son in g; it s
con sist en cy
wit h
r ela t ed
decision s;
lega l
developm en t s sin ce t h e decision a n d r elia n ce on t h e
decision .” F r a n ch ise Ta x Bd. of Ca l. v. H ya t t , 587
U.S. ___, 17 (2019).
Th is pet it ion is a n im por t a n t on e. 42 U.S.C.
§1981 is a la n dm a r k st a t u t e t h a t pr ot ect s t h e r igh t s
of
m illion s
of
Am er ica n s
fr om
in vidiou s
discr im in a t ion a n d r et a lia t ion in con n ect ion wit h
em ploym en t con t r a ct s. Th e Su pr em e Cou r t sh ou ld
gr a n t a wr it of cer t ior a r i t o t h e cla r ify t h e a ccr u a l
r u le for su ch con t r a ct cla im s, in ligh t of it s decision
in McDon ou gh , t h e con t r a ct u a l n a t u r e of §1981
cla im s a n d t h e 1991 a m en dm en t s t o §1981.
I.

Th is Co u rt’s D e c is io n in Mc D o n o u gh v.
S m ith is in te n s io n w ith Ch a rd on v .
F e rn a n d e z in th e c o n te x t o f p o s t
c o n trac t -fo rm a tio n §1981 c la im s .

On Apr il 17, 2019, t h ir t een da ys befor e t h e
F ou r t h Cir cu it Cou r t of Appea ls en t er ed it s decision

7
in P et it ion er ’s ca se, t h e Su pr em e Cou r t decided
McDon ou gh v. Sm it h , 588 U.S. ___ (2019).
In McDon ou gh , t h e Cou r t wa s con fr on t ed wit h
t h e qu est ion of wh en a §1983 cla im for “fa br ica t edeviden ce” cla im begin s t o a ccr u e for st a t u t e of
lim it a t ion s pu r poses .
Wr it in g for t h e m a jor it y,
J u st ice Sot om a yor r epea t ed t h e a xiom of Ricks a n d
Ch a r don t h a t t h e a ppr opr ia t e cla im s a ccr u a l r u le” is
a qu est ion of feder a l la w.” McDon ou gh v. Sm it h ,

588 U.S. ___, ___(2019) (slip op., a t 4).
Th e Cou r t wen t on t o st a t e t h a t t h e “Cou r t
oft en decides a ccr u a l qu est ion s by r efer r in g t o
t h e com m on -la w pr in ciples gover n in g a n a logou s
t or t s[]” a n d t h a t is “pr esu m pt ively wh en t h e
pla in t iff h a s a com plet e a n d pr esen t ca u se of
a ct ion .” McDon ou gh , 588 U.S. ___,(2019) (slip
op., a t 12).
In decidin g t h a t McDon ou gh ’s fa br ica t ed eviden ce cla im st a r t ed t o a ccr u e on ly wh en t h er e
wa s a fa vor a ble t er m in a t ion of h is pr osecu t ion ,
t h e Cou r t looked t o u n der lyin g t or t cla im s of
“m a liciou s pr osecu t ion ” for t h e pr in ciples “t o
gu ide…[a n d] a s a sou r ce of in spir ed exa m ples
[r a t h er ]
than
pr efa br ica t ed
com pon en t s.”
McDon ou gh , 588 U.S. ___, ___ (2019)(slip op. a t
5).
Respect fu lly, t h e Cou r t ’s decision in
McDon ou gh a ppea r s a t t en sion wit h it s pr ior
decision in Ch a r don v. F er n a n dez, 454 U.S. 6
(1981). In Ch a r don , t h e Cou r t con sider ed a cla im
a llegin g t h a t a n em ployee’s t er m in a t ion wa s
discr im in a t or y a n d viola t ed §1983.
Un like

8
McDon ou gh , t h e Ch a r don cou r t d id n ot requ ire a
“com plet e a n d pr esen t ca u se of a ct ion” t o begin
a ccr u a l. Ra t h er , Ch a r don r epea t ed t h e r u le set for t h
in Dela wa r e St a t e College v. Ricks, 449 U. S. 250
(1980). Th a t “t h e pr oper focu s is on t h e t im e of t h e
d iscrim in atory act, n ot t h e poin t a t wh ich t h e
con sequ en ces of t h e a ct becom e pa in fu l.”
In McDon ou gh , t h e a ct t h a t viola t ed t h e
con st it u t ion a l r igh t of “Du e P r ocess” wa s t h e
fa br ica t ion of eviden ce. Not wit h st a n din g, t h e Cou r t
fou n d t h a t McDon ou gh ’s cla im did n ot begin a ccr u in g
wit h h is a wa r en ess of t h e “fa br ica t ion of evidence”
bu t on ly a ft er t h er e wa s a fa vor a ble t er m in a t ion of
t h e pr osecu t ion . Th is is a t odds wit h t h e Cou r t ’s
decision in Ch a r don , wh ich fou n d t h a t t h e §1983
cla im d id begin to accru e a t t h e t im e of t h e
discr im in a t or y decision .
Th e Cou r t in McDonou gh wa s a lso con cer n ed
wit h t h e con sequ en ces t h a t wou ld follow fr om a
§1983 cla im s a ccr u a l r u le t h a t would “im pose a
t ickin g lim it a t ion s clock on cr im in a l defen da n t s a s
soon a s t h ey becom e a wa r e t h a t fa br ica t ed eviden ce
h a s been u sed a ga in st t h em .” McDon ou gh v. Sm it h ,

588 U .S. ___, ___(2019) (slip op., a t 9). Alt h ou gh
n ot a per fect a n a logy, t h e sa m e “con sequ en ces”
follow fr om a §1983 r u le t h a t r equ ir es em ployees
t o br in g su it a s soon a s t h ey becom e a wa r e of a
discr im in a t or y decision .
F or exa m ple: a n
em ployee is n ot ified t h a t t h ey a r e bein g
t er m in a t ed t wo yea r s h en ce a n d t h ey believe
t h a t decision is discr im in a t or y. Alt h ou gh t h e
em ployee is n ot yet t er m in a t ed, a n d h a s su ffer ed
n o a ct ion a ble em ploym en t a ct ion u n der §1981,
t h ey m u st decide wh et h er t o br in g su it a ga in st

9

t h e em ployer over t h e t h r ea t of t er m in a t ion , or
let t h e lim it a t ion s per iod ela pse.
Mor eover , t h e Cou r t in McDon ou gh
a n a lyzed cla im s a ccr u a l u n der feder a l la w in t h e
con t ext of bot h t h e feder a l cla im (Du e P r ocess
viola t ion ) an d t h e com m on la w st a n da r ds
a pplica ble t o su ch viola t ion s. In Ricks a n d
Ch a r don t h er e wa s n o a n a lysis of t h e u n der lyin g
§1981 p o s t c o n tra c t fo rm a tio n r igh t s m a de
possible by t h e 1991 a m en dm en t s t o §1981.
Th is is of cou r se t r u e for t wo r ea son s: 1)
Ch a r don wa s a ca se wh er e t h e Cou r t con sider ed
cla im s a ccr u a l for §1983 cla im s n ot §1981 cla im s
a n d 2) t h e 1991 a m en dm en t s t o §1981 wer e
en a ct ed a ppr oxim a t ely a deca de a ft er t h e Ricks
a n d Ch a r don decision s.
Th u s,
t h is
Cou r t ’s
r ea son in g
in
McDon ou gh pr ovides a su fficien t ba sis t o gr a n t a
wr it of cer t ior a r i t o con sider t h e con t in u ed
a pplica t ion of Ricks a n d Ch a r don t o §1981
cla im s m a de possible by t h e 1991 a m en dm en t s
a s n eit h er Ricks n or Ch a r don con sider ed t h e
u n der lyin g con t r a ct u a l n a t u r e of t h e feder a l
cla im (sim ila r t o McDon ou gh ) a n d t h e
McDon ou gh Cou r t ’s r ea son in g a ppea r s t o pr efer
a r u le t h a t fa vor s a ccr u a l a t a t im e wh en a ll t h e
elem en t s of t h e cla im a r e pr esen t .

10

II.

Th e 1991 Am e n d m e n ts to th e Civil
Rig h ts Ac t c h a n g e d th e c o n to u rs o f
§1981 p o s t c o n tra c t fo rm a tio n c la im s .
It is a p p ro p ria te for th e Co u rt to lo o k
a t th e u n d e rly in g c o n tra c t c la im for
p rin c ip le s o f c la im s a c c ru a l - s im ila r
to w h a t th e Co u rt d id re c e n tly in
Mc D o n o u g h .
Re s p e c tfu lly , th e ru le s
a rtic u la te d in Ric k s a n d Ch a rd on a re
o u td a te d a s a p p lie d to th e s e p o s t 1991
a m e n d m e n ts c la im s .

Qu ot in g J u st ice St even s, t h e Dist r ict Cou r t
a ckn owledged t h a t t h e 1991 a m en dm en t s t o
§1981 “con st it u t ed t h e la r gest a lt er a t ion t o t h e
Recon st r u ct ion er a st a t u t e.” P et . App. 11a :
[t]he original version of the statute now
codified at Rev. Stat. § 1977, 42 U.S.C. §
1981, was enacted as § 1 of the Civil
Rights Act of 1866, 14 Stat. 27. It was
amended in minor respects in 1870 and
recodified in 1874, see Runyon v.
McCrary, 427 U.S. 160, 168-169, n. 8, 96
S.Ct. 2586, 49 L.Ed.2d 415 (1976), but
its basic coverage did not change prior
to 1991. As first enacted, § 1981
provided in relevant part that `all
persons [within the jurisdiction of the
United States] shall have the same
right, in every State and Territory . . . to
make `and enforce contracts . . . as is
enjoyed by white citizens.' 14 Stat. 27.
We held in Patterson v. McLean Credit

11
Union, 491 U.S. 164, 109 S.Ct. 2363,
105 L.Ed.2d 132 (1989), that the
statutory right `to make and enforce
contracts' did not protect against
harassing conduct that occurred after
the formation of the contract. . . . In
1991, however, Congress responded
to Patterson by adding a new subsection
to § 1981 that defines the term `make
and enforce contracts' to include the
`termination of contracts, and the
enjoyment of all benefits, privileges,
terms, and conditions of the contractual
relationship.' 42 U.S.C. § 1981(b).

Jones v. R. R. Donnelley & Sons Co., 541 U.S. 369,
372-73 (2004).

The 1991 Amendments redefined the contract
rights protected by §1981. At the time of Ricks and
Chardon, §1981 did not cover post-contract formation
harassment or termination.
Therefore, it is
reasonable to understand why the Ricks and
Chardon courts focused the claim accrual analysis on
the time of the “discriminatory decision” - because
such a decision in the formation of contracts was all
that was required, and, indeed, all that was
permitted, for cognizable §1981 claims.
However, following 1991, an employee may
allege a §1981 claim for retaliatory breach of
employment contract - where no such claim would lie
prior to 1991. But, unlike pre-1991 claims - the
Court cannot just look to the discriminatory decision
to decipher the elements of the employee’s “breach of
contract” or harassment claim. Rather, the Court

12
should utilize the same approach it did recently in
McDonough and determine whether the plaintiff

“h a s a com plet e a n d pr esen t ca u se of a ct ion .”
McDon ou gh v. Sm it h , 588 U .S. ___, ___(2019)
(slip op., a t 12).
Th e McDon ou gh a ppr oa ch t o su ch §1981
con t r a ct a ct ion s is m or e pr a ct ica l t h a n t h e
Ricks/Ch a r don a ppr oa ch . F or exa m ple, u n der
Ricks/Ch a r don , if a su per visor t ells a n em ployee
t h a t “I a m goin g t o discr im in a t or ily h a r a ss you ” bu t t h en does n ot a ct u a lly h a r a ss t h a t per son n on et h eless t h ey m u st file su it t o pr eser ve t h eir
r igh t s. By wa y of a differ en t exa m ple, if t h e
su per visor sa ys “I’m goin g t o t r a n sfer you t o a
differ en t job” - a n d doesn ’t - or “I a m goin g t o
dem ot e you ” bu t t h e per son keeps h is posit ion in bot h scen a r ios t h e per son wou ld be
pr em a t u r ely r equ ir ed t o file su it - r a t h er t h a n
wa it for t h e su per visor ’s discr im in a t or y decision
t o com e t o fr u it ion .
Specifica lly in t h e con t ext of a §1981 cla im
(a s opposed t o a Tit le VII cla im wh ich r equ ir es
in vest iga t ion a n d in t er ven t ion by t h e E qu a l
E m ploym en t Oppor t u n it y Com m ission ) it m a kes
per fect sen se for a n em ployee n ot t o file su it
u n t il t h er e h a s been s om e ch a n ge in t h e
con t r a ct u a l r ela t ion sh ip bet ween t h e em ployee
a n d h is em ployer . Th e ver y u n der pin n in gs of
t h e feder a l post -1991 a m en dm en t §1981 r igh t ,
(like t h e du e pr ocess r igh t der ived fr om
m a liciou s pr osecu t ion in McDon ou gh ) st em s fr om
t h e com m on la w con t r a ct pr in cipa ls. J u st like
McDon ou gh , t h e Cou r t sh ou ld con du ct a cla im s
a ccr u a l a n a lysis on post 1991 §1981 cla im s t h a t

13

looks t o t h e u n der lyin g con t r a ct la w for gu ida n ce
on t h e a ccr u a l of t h e r igh t a t issu e.
As t h is a n a lysis wa s n ot don e in Ricks a n d
Ch a r don beca u se t h ose Cou r t s did n ot h a ve t h e
ben efit of t h e 1991 a m en dm en t s, t h is Cou r t
sh ou ld gr a n t t h e pet it ion for a wr it of cer t ior a r i
t o a n swer t h e cla im s a ccr u a l qu est ion in ligh t of
t h ose a m en dm en t s a n d it s r ecen t decision in
McDon ou gh v. Sm it h , 588 U.S. ___ (2019).
CON CLU S ION
F or t h e r ea son s st a t ed a bove, t h e pet it ion for a
wr it of cer t ior a r i sh ou ld be gr a n t ed.

Da t ed: J u ly 29, 2019.
Respect fu lly su bm it t ed,
Mor r is E . F isch er , E sq.
Cou n sel of R ecord
Mor r is E . F isch er , LLC
8720 Geor gia Ave, Suit e 210
Silver Spr in g, MD 20910-3614
(301) 328-7631 (Teleph on e)
(301) 328-7638 (Fa csim ile)
Mor r is@m fisch er la w.com
Cou n sel for Petition er

iA

AP P EN D IX
AP P E NDIX………………………………………………iA
Un pu blish ed Opin ion a n d J u dgm en t of
Th e Un it ed St a t es Cou r t of Appea ls
F or t h e F ou r t h Cir cu it
en t er ed Apr il 30, 2019…………………1A
Mem or a n du m Opin ion of
Th e Un it ed St a t es Dist r ict Cou r t
F or t h e Dist r ict of Ma r yla n d
en t er ed Sept em ber 27, 2018………….5A
Or der of
Th e Un it ed St a t es Dist r ict Cou r t
F or t h e Dist r ict of Ma r yla n d
en t er ed Sept em ber 27, 2018………...16A

1A

[EN TER ED AP RIL 30, 2019]
U N P U B LIS HE D
UNITE D STATE S COURT OF AP P E ALS
F OR TH E F OURTH CIRCUIT
_____________

N o . 18-2296

_____________

P AME LA J . SMITH ,
P la in t iff - Appella n t ,
v.
UNIVE RSITY OF MARYLAND BALTIMORE ;
J OH N J E NSE N, In dividu a l Ca pa cit y;
GLOSE NDA NAVALE S, In dividu a l Ca pa cit y,
Defen da n t s - Appellees.
_____________

Appea l fr om t h e Un it ed St a t es Dist r ict Cou r t for
t h e Dist r ict of Ma r yla n d, a t Ba lt im or e.
Ca t h er in e C. Bla k e, Dist r ict J u dge. (1:17-cv03664-CCB)
_____________

Su bm it t ed: Apr il 25, 2019

2A

Decided: Apr il 30, 2019
_____________

Befor e GRE GORY, Ch ief J u dge, a n d AGE E a n d
RICH ARDSON, Cir cu it J u dges.
_____________

Affir m ed by u n pu blish ed per cu r ia m opin ion .
_____________

Da n iel E . Ken n ey, DK ASSOCIATE S, LLC,
Ch evy Ch a se, Ma r yla n d, for Appella n t . Br ia n E .
F r osh , At t or n ey Gen er a l, Ma t t h ew P . Rein h a r t ,
Assist a n t At t or n ey Gen er a l, OF F ICE OF TH E
ATTORNE Y GE N E RAL OF MARYLAN D,
Ba lt im or e, Ma r yla n d, for Appellees.
_____________

Unpublished opinions are not binding precedent in this
circuit.
P E R CU RIAM:
P a m ela J . Sm it h a ppea ls t h e dist r ict
cou r t ’s or der gr a n t in g Defen da n t s’ F ed. R. Civ. P .
12(b)(6) m ot ion t o dism iss h er em ploym en t
discr im in a t ion a ct ion a s u n t im ely. On a ppea l,
t h e pa r t ies dispu t e t h e pr oper da t e of a ccr u a l for
Sm it h ’s cla im s br ou gh t u n der 42 U.S.C. § 1981
(2012). F or t h e r ea son s t h a t follow, we a ffir m .
We r eview a n or der gr a n t in g a Ru le
12(b)(6) m ot ion de n ovo. Ott v. M d . Dep’t of Pu b.
S afety & Corr. S ervs., 909 F .3d 655, 658 (4t h Cir .

3A

2018). “A cou r t m a y dism iss a com pla in t on
st a t u t e of lim it a t ion s gr ou n ds if t h e t im e ba r is
a ppa r en t on t h e fa ce of t h e com pla in t .” Id .
(in t er n a l qu ot a t ion m a r ks om it t ed).
P ost con t r a ct em ploym en t discr im in a t ion
cla im s u n der § 1981 a r e su bject t o a fou r -yea r
st a t u t e of lim it a t ion s. J on es v. R .R . Don n elley &
S on s Co., 541 U .S. 369, 382-83 (2004). In
det er m in in g a § 1981 cla im ’s da t e of a ccr u a l, “t h e
pr oper focu s is on t h e t im e of t h e d iscrim in atory
act, n ot t h e poin t a t wh ich t h e con sequ en ces of
t h e a ct becom e pa in fu l.” Ch ard on v. Fern an d ez,
454 U.S. 6, 8 (1981) (per cu r ia m ) (cit in g Del.
S tate Coll. v. R ick s, 449 U.S. 250, 258 (1980)); see
Green v. B ren n an , 136 S. Ct . 1769, 1782 (2016).
Th u s, a discr im in a t or y disch a r ge cla im a ccr u es
wh en t h e em ployee r eceives n ot ice of t h e
t er m in a t ion , n ot on t h e la st da y of em ploym en t .
S ee Ch ard on , 454 U .S. a t 7-8.
H er e, Sm it h com m en ced t h is a ct ion fou r
yea r s a n d on e m on t h a ft er r eceivin g h er
t er m in a t ion n ot ice. Alt h ou gh Sm it h u r ges u s t o
u se h er disch a r ge da t e a s t h e da t e h er § 1981
cla im s a ccr u ed —t h u s m a kin g h er a ct ion
t im ely —we discer n n o ba sis for depa r t in g fr om
t h e r u le est a blish ed in R ick s a n d Ch ard on . Th u s,
beca u se Sm it h filed h er com pla in t m or e t h a n
fou r yea r s a ft er lea r n in g of h er im pen din g
t er m in a t ion , we con clu de t h a t h er a ct ion wa s
u n t im ely.
Accor din gly, we a ffir m t h e ju dgm en t of t h e
dist r ict cou r t . We dispen se wit h or a l a r gu m en t
beca u se t h e fa ct s a n d lega l con t en t ion s a r e

4A

a dequ a t ely pr esen t ed in t h e m a t er ia ls befor e t h is
cou r t a n d a r gu m en t wou ld n ot a id t h e decision a l
pr ocess.
AFFIRMED

5A

[ENTERED SEPTEMBER 27, 2018]
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOUTHERN DIVISION
PAMELA J. SMITH,
Plaintiff,
v.

:

Civil Action No.

:

CCB-17-3664

:

UNIVERSITY OF MARYLAND :
BALTIMORE, ET. AL.
:
Defendant.
______________________________/
Filed: September 27, 2018.
_____________
MEMORANDUM OPINION
_____________
Pamela J. Smith, Plaintiff, represented by Daniel E.
Kenney, DK Associates, LLC.
University of Maryland Baltimore, John Jensen,
Individual Capacity & Glosenda Navales, Individual
Capacity, Defendants, represented by Matthew Paul
Reinhart, Office of the Attorney General Educational
Affairs Division.

6A
MEMORANDUM
CATHERINE C. BLAKE, District Judge.
This is an employment discrimination case. Pamela
J. Smith alleges that while she was employed as an
accountant by the University of Maryland,
Baltimore, she was subjected to discrimination on
the basis of her race and subsequent retaliation for
reporting such discrimination to her department
director and to the University's human resources
department. (Pl.'s Second Am. Compl. ("SAC"), ECF
No. 7.) Ms. Smith filed suit under 42 U.S.C. §
2000e, et seq., 42 U.S.C. § 1981, and 42 U.S.C. §
1983, (SAC ¶¶ 48-49, ECF No. 7), but has since
abandoned her Title VII and § 1983 claims,
conceding their untimeliness. (Pl's Mem. in Opp'n to
Defs' Mot. to Dismiss, ECF No. 20-1 at p. 4.) The
remaining live issue, therefore, is the defendants'
motion to dismiss the plaintiff's race discrimination
and retaliation claims brought under 42 U.S.C. §
1981. Because Ms. Smith's § 1981 claims are also
time-barred, the motion will be granted.2
BACKGROUND

2

Beca u se Ms. Sm it h's cla im s a r e t im e-bar r ed, t h e cou r t
does n ot r each t he collat er a l est oppel issue. It does not e,
h owever , t h a t Adm in ist r a t ive Law J udge Gr esock fou n d
Ms. Sm it h's t er m in a t ion was based on in com pet en cy, a
fin din g t h a t was uph eld by t h e Ba lt im or e Cit y Cir cu it
Cou r t .

7A
Pamela J. Smith began her tenure as an accountant
with the University of Maryland, Baltimore (the
"University") in March, 2008. (SAC ¶ 8.)3 Her work
with the University started successfully. (SAC ¶¶ 1218.) She was given increasing authority and
leadership responsibilities in the workplace. (SAC in
¶¶ 15-18.) Ms. Smith requested that her pay and
title be reevaluated in light of her additional duties.
(SAC ¶ 19.) Her request was denied. (SAC ¶ 20.) Ms.
Smith is African American, and, in 2011, she and
other African American employees filed complaints
against their supervisor, defendant Glosenda
Navales (who is of Asian descent), contending that
she created a hostile workplace for African
Americans. (SAC ¶ 21.) These complaints also were
shared with Ms. Navales's supervisor, defendant
John Jensen (who is white), and the University's
human resources department. (SAC ¶¶ 23-25.) After
the complaints were filed, Ms. Smith alleges, she
started to receive poor job-performance feedback and
undue disciplinary warnings, and she and other
African American employees who came forward with
grievances involving race discrimination were then
excluded from staff meetings. (SAC ¶¶ 29, 32-33.)
Ms. Smith filed a complaint with the EEOC on
October 6, 2011. (SAC ¶ 34.) Shortly thereafter, she
was placed on a Performance Improvement Plan at
work, which was renewed, at monthly intervals, for
over a year and a half until her termination. (SAC ¶¶
35-36, 41-42.) On December 9, 2013, Ms. Smith was
terminated from her employment by the University.
(SAC ¶ 44.)
3

F or pur poses of t his m ot ion t o dism iss, t h e fact s plea ded
a r e assum ed t o be t r u e. Ash cr oft v. Iqba l, 556 U.S. 662,
696 (2009).

8A
On December 11, 2017, Ms. Smith filed a pro
se action against the University under both Title VII
and § 1981. (Compl., ECF No. 1 at p. 4.) She
amended that complaint to add Mr. Jensen and Ms.
Navales as defendants the following day. (Am.
Compl., ECF No. 2.) On February 26, 2017, Ms.
Smith filed a second amended complaint—this time
through counsel— which, among other changes,
added a claim under § 1983. Ms. Smith has now
abandoned her Title VII and § 1983 claims,
conceding that they were untimely. She maintains,
however, that her claims under § 1981 remain viable.
ANALYSIS
I. Standard of Review
To survive a motion to dismiss, the factual
allegations of a complaint "must be enough to raise a
right to relief above the speculative level on the
assumption that all the allegations in the complaint
are true (even if doubtful in fact)." Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (internal
citations omitted). "To satisfy this standard, a
plaintiff need not `forecast' evidence sufficient to
prove the elements of the claim. However, the
complaint must allege sufficient facts to establish
those elements." Walters v. McMahen, 684 F.3d 435,
439 (4th Cir. 2012) (citation omitted). "Thus, while a
plaintiff does not need to demonstrate in a complaint
that the right to relief is `probable,' the complaint
must advance the plaintiff's claim `across the line
from
conceivable
to
plausible.' Id. (quoting Twombly, 550 U.S. at 570).
And the plaintiff typically must do so by relying

9A
solely on facts asserted within the four corners of his
complaint. Zak v. Chelsea Therapeutics Intern.,
Ltd, 780 F.3d 597, 606-07 (4th Cir. 2015). While the
inquiry is horned on the sufficiency of the complaint,
in "relatively rare circumstances where facts
sufficient to rule on an affirmative defense are
alleged in the complaint, [an affirmative] defense
may be reached by a motion to dismiss filed under
Rule 12(b)(6)." Goodman v. Praxair, Inc., 494 F.3d
458, 464 (4th Cir. 2007).
II. Discussion
There is much on which the parties here agree. First,
Ms. Smith and the defendants agree that § 1981
suits postdating the Civil Rights Act of 1991 are
subject to the general four-year statute of limitations
under 28 U.S.C. § 1658. (Pl's Mem. in Opp'n to Defs'
Mot. to Dismiss, ECF No. 20-1 at p. 5-6; Mem. in
Supp. of Defs' Mot. to Dismiss, ECF No. 12-1 at p. 8.)
Instead, the subject of this dispute is the timing of
her claim's accrual. Next, the parties agree that
claims pertaining to discriminatory termination,
when brought under federal civil rights legislation,
accrue, as a general matter, "on the date the decision
to terminate employment was made and
communicated to the employee—not the date the
employment was actually terminated." (See Pl's
Mem. in Opp'n to Defs' Mot. to Dismiss, ECF No. 201 at p. 6 (citing Chardon v. Fernandez, 454 U.S. 6, 8
(1981).) The plaintiff also appears to accept that this
accrual rule applied to § 1981 actions before
amendments to that statute were enacted as part of
the Civil Rights Act of 1991. (Pl's Mem. in Opp'n to
Defs' Mot. to Dismiss, ECF No. 20-1 at p. 6). The
crux of the present matter, by contrast, is Ms.

10A
Smith's contention that the 1991 amendments to §
1981 transformed the statute from an antidiscrimination cause of action into a breach of
contract right, such that her claims would accrue,
pursuant to Maryland contract law, upon her
employment contract's termination.
In 1980, the Supreme Court held, in a case involving
a professor's denial of tenure, that "[i]n order for the
limitations periods to commence with the date of
discharge," the plaintiff would have to show that the
termination itself "differed discriminatorily" from the
decision to deny the plaintiff tenure. Delaware State
Coll. v. Ricks, 449 U.S. 250, 258 (1980). "[T]he proper
focus," the Court reasoned, "is upon the time of
the discriminatory acts, not upon the time at which
the consequences of
the
acts
became
most
painful." Id. (noting that, in that case, the "only
alleged discrimination occurred—and the filing
limitations periods therefore commenced—at the
time the tenure decision was made and
communicated to Ricks. That is so even though one
of the effects of the denial of tenure—the eventual
loss of a teaching position—did not occur until
later.") (emphasis preserved). One year later,
in Chardon, where
a
direct
termination
of
employment was at issue, instead of a denial of
tenure, the Court harkened back to Ricks, reiterating
that `mere continuity of employment, without more,
is insufficient to prolong the life of a cause of action
for
employment
discrimination.'" Chardon
v.
Fernandez, 454 U.S. 6, 8 (1981) (quoting Ricks, 449
U.S. at 257). The Chardon Court continued, "[i]n the
cases at bar, respondents were notified, when they
received their letters, that a final decision had been
made to terminate their appointments. The fact that

11A
they were afforded reasonable notice cannot extend
the period within which suit must be filed." Id.
Calculating the date Ms. Smith's claims accrued in
this
case,
under
the
rule
announced
in Ricks and Chardon, is straightforward. Ms. Smith
received a letter from the defendants on November 8,
2013, stating that her employment with the
University would be terminated. The termination
took effect on December 9, 2013. (SAC ¶ 44; Pl's
Mem. in Opp'n to Defs' Mot. to Dismiss, ECF No. 201 at p. 8.) She does not allege that any discrete
discriminatory act occurred after the date she
received notice of her termination. The relevant
discriminatory act was the University's decision to
terminate Ms. Smith; her eventual departure was
merely a consequence of that discriminatory
act. See Ricks, 449 U.S. at 258. Ms. Smith's claims
accrued, therefore, under Ricks and Chardon, on
November 8, 2013.
The plaintiff argues that Ricks and its progeny fail to
appreciate the contractual nature of § 1981 claims
and that, because § 1981 is a contract
right, contra Title VII, she had no cause of action
until the day her employment contract with the
University was breached. Id The discrimination and
retaliation that occurred, she reasons, happened not
when she received notice of her dismissal, but rather
on the day she was terminated, when her contractual
ties with the University were formally severed. Id To
hold for the plaintiff under this logic, however, would
be to diametrically contravene the prescriptions
of Chardon and Ricks, Supreme Court cases that
ruled on this precise issue—and that Ms. Smith does
not even attempt to distinguish. Instead, she relies

12A
on the 1991 amendments
after Chardon and Ricks.

to

§1981,

enacted

The 1991 amendments to § 1981, promulgated
through the Civil Rights Act of 1991, constituted the
largest alteration to the Reconstruction-era statute.
As Justice Stevens opined in 2004:
[t]he original version of the statute now codified at
Rev. Stat. § 1977, 42 U.S.C. § 1981, was enacted as §
1 of the Civil Rights Act of 1866, 14 Stat. 27. It was
amended in minor respects in 1870 and recodified in
1874, see Runyon v. McCrary, 427 U.S. 160, 168-169,
n. 8, 96 S.Ct. 2586, 49 L.Ed.2d 415 (1976), but its
basic coverage did not change prior to 1991. As first
enacted, § 1981 provided in relevant part that `all
persons [within the jurisdiction of the United States]
shall have the same right, in every State and
Territory . . . to make `and enforce contracts . . . as is
enjoyed by white citizens.' 14 Stat. 27. We held
in Patterson v. McLean Credit Union, 491 U.S. 164,
109 S.Ct. 2363, 105 L.Ed.2d 132 (1989), that the
statutory right `to make and enforce contracts' did
not protect against harassing conduct that occurred
after the formation of the contract. . . . In 1991,
however, Congress responded to Patterson by adding
a new subsection to § 1981 that defines the term
`make and enforce contracts' to include the
`termination of contracts, and the enjoyment of all
benefits, privileges, terms, and conditions of the
contractual relationship.' 42 U.S.C. § 1981(b).

Jones v. R. R. Donnelley & Sons Co., 541 U.S. 369,

372-73 (2004). Thus, in effect, the 1991 amendments
expanded the scope of § 1981 suits to include postformation contract
discrimination claims. See

13A

also Jenkins v. Gaylord Entm't Co., 840 F. Supp. 2d
873, 877-78 (D. Md. 2012). And yet, when viewed in
light of the statute's history, these additions did not
recast § 1981 into a breach of contract right of
action—§ 1981 has always pertained to contracts.
Instead, these amendments simply broadened the
field of contract-discrimination claims cognizable
under the statute. Then and now, § 1981 has held
the sole purpose of maintaining equal contract rights
and prohibiting discrimination in the execution (and
now performance) of contracts.

Cases that consider the timing of a § 1981 claim's
accrual in the wake of the 1991 amendments
uniformly adhere to the pre-1991 rule announced
in Ricks and Chardon. See, e.g., Wahi v. Charleston
Area Med. Ctr., 453 F. Supp. 2d 942, 957-58 (S.D.W.
Va. 2006), aff'd sub nom. Wahi v. Charleston Area
Med. Ctr., Inc., 562 F.3d 599 (4th Cir. 2009) ("Section
1981 claims for wrongful termination accrue on the
date the employer notifies the employee that he is
being terminated."); Kornyo v. Gonzaga Coll. High
Sch.,308 F. Supp. 3d 212, 217 (D.D.C.
2018) ("Plaintiff alleges that he was informed that
his employment contract would not be renewed on
April 30, 2013. . . .[therefore, absent an
independently actionable subsequent discriminatory
act or a hostile work environment claim] Plaintiff's
Section 1981 race discrimination claim accrued no
later than that date."); Nghiem v. U.S. Dep't of
Veterans Affairs, 451 F. Supp. 2d 599, 604 (S.D.N.Y.
2006)("Section 1981 claims for wrongful termination
accrue on the date the employer notifies the
employee that he is being terminated."). The plaintiff
cites no cases to support her innovative contractright theory—she merely implores the court to

14A
timestamp the accrual of her claim as if it were a
state law breach of contract claim.
In this case, the 1991 amendments do not salvage
Ms. Smith's § 1981 claim because they do not alter
the timing of the discriminatory acts at issue. While
the 1991 amendments expanded a plaintiff's rights
under § 1981 to include claims for post-formation
discrimination—indeed, it is only because of the 1991
amendments that Ms. Smith can challenge her postcontract termination under §1981— the allegedly
discriminatory act remains the triggering event for
accrual. The fact that §1981 now covers the
termination of contracts does not render Ms. Smith's
last day, the date of the discriminatory act; rather,
her termination remains the consequence of the
University's allegedly discriminatory decision to
terminate Ms. Smith, a decision that was made and
communicated to Ms. Smith on November 8, 2013.
Because this is the last discrete discriminatory act
alleged, and because it occurred more than four
years before Ms. Smith filed her first complaint, her
claims remain untimely.
The allegations in the case, if accurate, are serious.
Ms. Smith understandably seeks some redress. But
more than four years transpired between the accrual
of her claim and the filing of her first complaint. Ms.
Smith does not assert any reason why the applicable
statute of limitations should be waived, estopped, or
equitably tolled. The timing of the alleged
discriminatory act is the touchstone of the accrual
analysis under Ricks and Chardon and remains so
under subsequent persuasive case law. The 1991
amendments to § 1981 do not change this fact.
Because Ms. Smith does not allege that a

15A
discriminatory act occurred in the four years
preceding the filing of her complaint, her § 1981
claim is time-barred. The defendants' motion to
dismiss will be granted.
CONCLUSION
For the reasons stated above, the defendants' motion
to dismiss Ms. Smith's remaining claims will be
granted.
A separate order follows.
9/27/18

/s/ Catherine C. Blake
Catherine C. Blake
United States District Judge

16A

[ENTERED SEPTEMBER 27, 2018]
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOUTHERN DIVISION
PAMELA J. SMITH,
Plaintiff,
v.

:

Civil Action No.

:

CCB-17-3664

:

UNIVERSITY OF MARYLAND :
BALTIMORE, ET. AL.
:
Defendant.
______________________________/
ORDER
_____________
For the reasons stated in the accompanying
Memorandum, it is hereby ORDERED that:
1. The defendants’ motion to dismiss, (ECF No.
12) is GRANTED;
2. this case is DISMISSED with prejudice;
3. the Clerk shall CLOSE this case; and

17A
4. the Clerk shall SEND a copy of this Order and
accompanying Memorandum to counsel of
records.
9/27/18

/s/ Catherine C. Blake
Catherine C. Blake
United States District Judge

